                        Closeout Memorandum for M98 100031


     On October 14, 1998, a Program Officer (P0)l told u s she had been
informed of a n incident that should be brought to our attention. She told u s
the subject's2 research activities included his taking students to a remote field
site for education and research. While at a remote site, he allegedly used his
NSF grant funds3 to facilitate the sexual harassment of several of his female
students.
    The PO had received anonymous telephone calls alleging the subject had
coerced students to undress and join him in a sauna while he was also
undressed. The PO was told that the subject had made the sauna participation
mandatory by telling the students their grades and project performance
depended on it. It was alleged that some students had been touched
inappropriately while in the sauna. It was also alleged that the subject had
purchased alcoholic beverages for underage students.
    We learned the subject's Department Chair4 knew of the allegations and
had looked into them. However, the Chair told u s the inquiry began to involve
different components of the university, and he referred it to a university-wide
administrative office to be handled by that office's Investigator.5 We discussed
the matter with University administrators, who agreed to carry out an
investigation into the allegations, and we deferred our investigation until they
had concluded their efforts.
      During the investigation, the subject left the University. Although the
 I~vestigatorcompleted evidence gathering, which included interviewing the
 students and the subject, the University did not make formal factual findings
 because the subject did not participate in a evidential hearing. The
 Investigator learned that the subject had been in a sauna at the remote field
 site with several of his students (two female, one male) and his wife while
everyone was undressed, but that no inappropriate touching or discussions
took place. The Investigator also learned the students were not coerced into
joining the subject in the sauna or into removing their clothing. The
Investigator confirmed that students visited bars and drank alcoholic
beverages, but there was no evidence indicating the subject had purchased the
alcohol consumed by underage students.
     The Provost's cover letter to the investigation report stated the evidence
collected by the Investigator indicated that the subject "at times used markedly
poor judgement," and that the University "does not condone the type of

     (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
     (footnote redacted).
   5 (footnote redacted).



                                    Page 1 of 2
                         Closeout Memorandum for M98 1 0 0 0 1~



behavior reflected in the investigation report." The University did not believe
the allegations raised questions of misconduct in science, but rather questions
of the subject's professional behavior.
     After the investigation, the subject provided additional information related
to: the process of the investigation, the environment in his department at the
University, student evaluations, uncooperative students at the field site, and
past site research with students. He believed those issues may have
contributed to why allegations were made and how the University handled the
investigation. He did not deny the facts from the investigation report, but he
thought senior members of his (former) department encouraged students to
embellish or exaggerate aspects of events. He agreed that, in hindsight, he
might have handled a few situations differently, but, overall, he was proud of
his record of taking inexperienced students to difficult environments and
bringing them home safely.
    Based on the information discussed above, we conclude that while the
subject's actions raised questions about his professional judgement and his
mentorship responsibilities, they are not misconduct in science. We
recommended that the subject's Program Officer emphasize to the subject the
importance N S F places on education, the integration of education in research,
and mentorship responsibilities, and point out how his actions are inconsistent
with NSF's goal of encouraging women to participate in science and
engineering. This inquiry is closed and no further action will be taken on this
case.


cc: Investigations, IG
                (




                                     Page 2 of 2
